No.
INTHE

&uprtmt ~ourt of tbt lintttb &tatts
GARY L. JACKSON,

Petitioner,

V.

KENNETH J. BRAITHWAITE, SECRETARY OF THE
UNITED STATES DEPARTMENT OF THE NAVY,

Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit

CERTIFICATE OF SERVICE
I, Anthony F. Shelley, a member of the Bar of this Court, hereby certify that,
on July 10, 2020, I caused three copies of the Petition for Writ of Certiorari in
this case to be served by first-class niail, postage prepaid, on counsel of record for
each respondent in this case as set forth below. I also caused an electronic copy of
the brief in PDF format to be served on counsel of record for each party in this case.
I further certify that all persons required to be served have been served.

R. Craig Lawrence
Jane M. Lyons
U.S. Attorney's Office, Civil Division
555 4th Street NW
Washington, DC 20530
Telephone: 202-252-2500
Email: craig.lawrence@usdoj.gov
Email: Jane.Lyons@usdoj.gov

Jeffrey B. Wall
Acting Solicitor General
United States Dep't of Justice
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
Telephone: 202-514-2203
Email: SupremeCtBriefs@usdoj.gov

AnG1he!-~
Miller & Chevalier Chartered
900 Sixteenth St. NW
Washington, DC 20006
Telephone: 202-626-5800
Facsimile: 202-626-5801
E-mail: ashelley@milchev.com

Counsel for Petitioner Gary L. Jackson

